             STATEMENT OF GREGORY H. FRIEDMAN
                      INSPECTOR GENERAL
                 U.S. DEPARTMENT OF ENERGY




                         BEFORE THE

                U.S. HOUSE OF REPRESENTATIVES

              COMMITTEE ON GOVERNMENT REFORM

SUBCOMMITTEE ON THE FEDERAL WORKFORCE AND AGENCY ORGANIZATION




                                      FOR RELEASE ON DELIVERY

                                      10:00 a.m., Tuesday, April 5, 2005
Mr. Chairman and members of the Subcommittee, I am pleased to be here today to testify

regarding recent allegations of misconduct involving documents associated with the U.S.

Department of Energy’s Yucca Mountain Project.


Disposal of the Nation’s high-level nuclear waste and spent nuclear fuel is one of the

most sensitive and complex challenges facing the U.S. Government. Under the Nuclear

Waste Policy Act, as amended in 1987, the Yucca Mountain site in the State of Nevada is

the only site in the United States to be evaluated for this purpose. The Act established a

formal, step-by-step methodology for making this evaluation. For the State of Nevada

and all other interested parties, the process to evaluate Yucca Mountain as the potential

repository has enormous implications. Paramount among concerns expressed is that the

consideration and evaluation be objective, and based on sound scientific analysis. Public

confidence in the evaluation and licensing process must also be assured.


On March 14, 2005, we became aware of allegations concerning possible falsification of

records relating to aspects of the scientific assessment of Yucca Mountain. We

assembled a team of highly qualified Special Agents and commenced a criminal

investigation to gather the relevant facts. We have been working jointly with the

Department of Interior’s Office of Inspector General and the Federal Bureau of

Investigation. Since this is a criminal case, we are in regular consultation with the United

States Attorney’s Office in Nevada.


Our plan is to conduct comprehensive interviews of Federal and contractor personnel and

analyze the extensive documentary record surrounding this matter. We have dedicated

the resources necessary to ensure an independent, objective, and thorough investigation.



                                             1
We will follow the facts wherever they may lead. Because of the nature of the

allegations and the importance of the Yucca Mountain Project, we will proceed as

expeditiously as possible.


Mr. Chairman and members of the Subcommittee, this concludes my statement. I will be

pleased to answer any questions.




                                           2
